Audit Report




OIG-09-044
SAFETY AND SOUNDNESS: City National Corporation Capital
Purchase Program Case Study
August 27, 2009




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report.................................................................................................... 1

    Emergency Economic Stabilization Act of 2008 .............................................. 2

    Treasury OIG’s Interim Oversight of TARP ...................................................... 2

    Case Study Results...................................................................................... 3

Appendices

    Appendix     1:      Objective, Scope, and Methodology ........................................              9
    Appendix     2:      Program Requirements ..........................................................        10
    Appendix     3:      Management Response .........................................................          16
    Appendix     4:      Report Distribution ................................................................   17

Abbreviations

    ALLL                 Allowance for Loan and Lease Losses
    City National        City National Corporation
    CPP                  Capital Purchase Program
    CRA                  Community Reinvestment Act
    EESA                 Emergency Economic Stabilization Act of 2008
    OCC                  Office of the Comptroller of the Currency
    OFS                  Office of Financial Stability
    Recovery Act         American Recovery and Reinvestment Act of 2009
    SIG                  Special Inspector General
    TARP                 Troubled Asset Relief Program
    UFIRS                Uniform Financial Institutions Rating System




                         City National Corporation Capital Purchase Program Case Study                      Page i
                         (OIG-09-044)
         This page intentionally left blank.




City National Corporation Capital Purchase Program Case Study   Page ii
(OIG-09-044)
                                                                                  Audit
OIG
The Department of the Treasury
                                                                                  Report
Office of Inspector General




                  August 27, 2009

                  Herbert M. Allison, Jr.
                  Assistant Secretary for Financial Stability

                  John C. Dugan
                  Comptroller of the Currency

                  As part of our interim oversight of the Troubled Asset Relief
                  Program (TARP), 1 we initiated an audit of the selection of the City
                  National Corporation (City National), the one-bank holding company
                  for City National Bank located in Los Angeles, California, 2 for
                  participation in the Capital Purchase Program (CPP). The purpose of
                  our work was to (1) provide a case study of the approval process
                  used by Treasury for allowing City National’s participation in CPP
                  and (2) determine the controls in place to ensure the approval of
                  this financial institution was consistent with TARP objectives.
                  Appendix 1 contains a detailed description of our objectives, scope,
                  and methodology.

                  In brief, based on our review, City National met the required criteria
                  to receive CPP funding. At the time of the corporation’s approval,
                  limited policies and procedures were in place relating to the review
                  and approval of TARP applications. We determined that the Office


                  1
                    The Emergency Economic Stabilization Act of 2008 established a Special
                  Inspector General for TARP (SIGTARP) to provide program oversight. Until that
                  office became operational, the Secretary of the Treasury asked the Treasury
                  Office of Inspector General (OIG) to provide interim oversight.

                  2
                   In a July 16, 2009 press release, City National Corporation designated City
                  National Plaza in downtown Los Angeles as its headquarters. Previous to this
                  designation, it had been headquartered in Beverly Hills, California since 1955.

                  City National Corporation Capital Purchase Program Case Study               Page 1
                  (OIG-09-044)
             of the Comptroller of the Currency (OCC) and Treasury followed
             those limited policies and procedures for approving City National
             for CPP.

             We provided a draft of this report to the Office of Financial
             Stability (OFS) and OCC for review and comment. In a written
             response, OFS concurred with the findings in this case study.
             OFS’s response also discusses additional controls around the
             processing of CPP applications that have been put in place
             subsequent to the approval of City National to access TARP funds
             through the CPP. OFS further states that it continues to promote
             financial stability through the CPP and directs CPP participants to
             report monthly on lending data that can be used as an indication of
             the impact the TARP funds are having on the availability of credit
             and taxpayers. OFS’s response is provided as appendix 3. OCC
             provided us technical comments and suggested edits which we
             addressed as appropriate in this report. We also provided a draft of
             this report to City National for informational purposes.

             Appendix 1 contains a detailed description of our objectives, scope,
             and methodology.


Emergency Economic Stabilization Act of 2008
             In October 2008, Congress passed and the President signed the
             Emergency Economic Stabilization Act of 2008 (EESA). Among
             other things, EESA provided Treasury with broad, flexible
             authorities to create programs to encourage U.S. financial
             institutions to build capital and increase the flow of financing to
             businesses and consumers to support the economy.


Treasury OIG’s Interim Oversight of TARP
             The main focus of our interim oversight was to gather information
             required for mandatory reporting by the SIGTARP. Specifically, we
             requested and were provided a listing of financial institutions
             approved by Treasury for CPP, and the type and amounts of the
             transactions. We were also provided access to the individual
             financial institution files containing application and approval
             information for CPP. The information we collected was turned over

             City National Corporation Capital Purchase Program Case Study    Page 2
             (OIG-09-044)
           to the SIGTARP on January 16, 2009, about a month after the
           appointment of the SIGTARP. In addition, as part of our interim
           oversight, we performed a case study of City National to provide
           an understanding of how Treasury approved financial institutions
           and holding companies for participation in CPP and to determine
           the controls in place to select recipients for participation in CPP.
           Details of the approval process for participation in CPP are included
           in appendix 2.

Case Study Results

      City National Corporation

           Corporation and Bank Background

           City National, a one-bank holding company for City National Bank,
           had total assets of $16.5 billion as of December 31, 2008, which
           included $12.4 billion in loans.

           City National Bank is located in Los Angeles, California and delivers
           banking, trust, and investment services through 63 offices in
           Southern California, the San Francisco Bay area, Nevada, and New
           York City. City National also delivers investment and wealth
           advisory services through its wealth advisory affiliates.

           City National’s lending activities are predominantly in California,
           and, to a lesser extent, in New York and Nevada. Although the
           corporation has a diversified loan portfolio, a substantial portion of
           credit performance depends on the economic stability of Southern
           California. Credit performance also depends, to a lesser extent, on
           economic conditions in the San Francisco Bay area, Nevada, and
           New York. According to a public statement made by bank
           management in March 2008, City National only made home
           mortgage loans to its private banking clients and the bank had
           never foreclosed on any of the loans.




           City National Corporation Capital Purchase Program Case Study    Page 3
           (OIG-09-044)
                       In its September 30, 2008, 10-Q report, 3 City National stated that
                       it received preliminary approval of its application for Treasury to
                       invest approximately $395 million in City National’s preferred stock
                       and warrants, which would bring City National’s Tier 1 capital ratio
                       to approximately 12 percent. City National also stated that it would
                       use the funds to pursue its longstanding growth strategy, including
                       expanding existing client relationships, adding new clients,
                       increasing loans, and making selected acquisitions.

                       Treasury’s Approval of City National Corporation for CPP
                       Participation

                       City National received $400 million of CPP funds on November 21,
                       2008, through a Treasury purchase of its preferred stock with
                       warrants. OCC, City National Bank’s federal regulator, received the
                       holding company’s application for $400 million in CPP funding on
                       October 22, 2008. OCC reviewed the application and prepared the
                       case decision memorandum.

                       On October 23, 2008, OCC forwarded a recommendation for
                       approval of City National and 10 other applicants to receive CPP
                       funding. The maximum federal investment in a participating CPP
                       institution is the lesser of $25 billion or 3 percent of the
                       institution’s risk-weighted assets. OCC stated in the
                       recommendation that the amount requested by City National
                       exceeded 3 percent of its risk-weighted assets based on second
                       quarter 2008 financial information. In this regard, City National’s
                       risk-weighted assets were $13,193,308,000 as of the end of the
                       second quarter. Three percent of that amount equaled
                       $395,799,000, which was $4,201,000 less than City National’s
                       requested amount of $400,000,000.

                       In its recommendation for approval, OCC stated that consistent
                       with application guidelines, the second-quarter information had
                       been updated by City National to include events that occurred after
                       quarter-end. According to OCC, the updated information indicated
                       that 3 percent of City National’s risk-weighted assets as of the end


3
 Form 10-Q is a quarterly report required by the Securities and Exchange Commission that includes
unaudited financial statements and provides a view of the company's financial position during the year.
The report must be filed for each of the first three quarters of the company's fiscal year.

                       City National Corporation Capital Purchase Program Case Study              Page 4
                       (OIG-09-044)
                        of the third quarter exceeded its requested amount of $400 million,
                        and therefore, within the maximum amount allowed.

                        City National received preliminary approval from the TARP
                        Investment Committee that same day, pending verification that the
                        requested amount of $400 million was within program
                        requirements. In an e-mail dated November 12, 2008, the Federal
                        Reserve Board informed OFS that the requested amount of $400
                        million was within 3 percent of City National’s total risk-weighted
                        assets as reported to the Federal Reserve Board on the holding
                        company’s third-quarter FR Y9-C form. 4 On November 21, 2008,
                        City National received $400 million of CPP funds through a
                        Treasury purchase of preferred stock with warrants.

                        We assessed the process and controls associated with OCC’s
                        review and recommendation to OFS and the TARP Investment
                        Committee’s preliminary recommendation of approval and the
                        Interim Assistant Secretary for Financial Stability’s subsequent final
                        approval for City National to receive CPP funding. At the time the
                        corporation received preliminary approval, only limited policies and
                        procedures relating to the review, approval, and timing of the
                        receipt of the funds were in place. We determined that in the case
                        of City National, OCC and CPP management followed the policies
                        and procedures at the time of review and approval.


Subsequent Events and Changes to CPP
                        The American Recovery and Reinvestment Act of 2009

                        CPP has remained largely the same since its inception, with the
                        most significant exception being the changes made as a result of
                        the American Recovery and Reinvestment Act of 2009 (Recovery
                        Act) enacted February 17, 2009. In this regard, the Recovery Act,

4
 Bank holding companies with total consolidated assets of $500 million or more are required to file
FR Y-9C reports with the Federal Reserve Board quarterly. In addition, other bank holding companies
meeting certain criteria may be required to file this report, regardless of size. FR Y-9C reports collect
basic financial data from domestic bank holding companies on a consolidated basis in the form of a
balance sheet, an income statement, and detailed supporting schedules, including a schedule of off-
balance-sheet items. The information is used to assess and monitor the financial condition of bank
holding company organizations, which may include parent, bank, and nonbank entities.


                        City National Corporation Capital Purchase Program Case Study                 Page 5
                        (OIG-09-044)
                       Section 7001, amended Section 111 of EESA to impose more
                       stringent rules on executive compensation. Additionally, under the
                       original terms of CPP established by Treasury, banks were
                       prohibited from repaying funds received for the first 3 years unless
                       they completed a qualified equity offering. With the provisions
                       introduced by the Recovery Act, once an institution notifies
                       Treasury that it wants to repay the CPP investment, Treasury must
                       permit the institution to repay subject to consultation with its
                       federal banking supervisor.

                       Monthly Reporting on Lending Activity by City National

                       CPP recipients are now directed by Treasury to report monthly on
                       lending data that can be used as an indication of the impact the
                       TARP funds are having on the institution and consumers. Treasury
                       also intends to provide quarterly reports that will illustrate balance
                       sheet changes for all CPP recipients to help taxpayers easily assess
                       lending and other activities of banks receiving Government
                       investments. According to OFS, these reports do not specifically
                       provide data on the use of TARP funds; however, they do increase
                       transparency and accountability for the financial institutions.

                       Through the CPP Monthly Lending Reports published on OFS’s
                       website, FinancialStability.gov, Treasury reports the monthly
                       lending data collected from CPP recipients. This data includes the
                       average consumer loans outstanding, average commercial loans
                       outstanding and total loans outstanding at month end. 5 The
                       monthly lending report data for City National Bank through April
                       2009 appear in Table 1 below.




5
  The category Consumer Loans generally includes loans used for personal, family, or household uses
including residential mortgages, home equity, credit card, and other consumer loans such as auto,
student loans, and other consumer loans. The category Commercial Loans generally includes loans for
commercial and industrial purposes to sole proprietorships, partnerships, corporations, and other
business enterprises, whether secured or unsecured, single payment, or installment. They also include
loans to individuals for commercial, industrial, and professional purposes, but not for investment or
personal expenditure purposes. These loans generally include commercial and industrial, small business
and commercial real estate.

                       City National Corporation Capital Purchase Program Case Study             Page 6
                       (OIG-09-044)
Table 1: City National Bank’s Monthly Lending Activity (in millions)

                                      Average        Average      Total
                                     Consumer       Commercial    Loans
                                       Loans          Loans

 February-2009                        $4,198          $8,232     $12,430
 March-2009                           $4,207          $8,158     $12,366
 April-2009                           $4,268          $8,067     $12,335

Source: CPP Monthly Lending Reports February, March and April 2009

City National Bank’s monthly lending reports indicated that it
continued to originate, refinance and renew loans in the consumer
lending area, while commercial lending decreased. It is important to
note, however, the data reported so far is for a very limited period
(3 months as of the end of our fieldwork). Treasury’s Monthly
Lending and Intermediation Snapshot Report, which collects similar
data from the top 21 financial institutions who received TARP
funds, also reported a similar decline in commercial lending by
those institutions. According to Treasury’s analysis, the decrease is
mainly because the banks focused on preserving liquidity,
strengthening their balance sheets, and paying down existing debt
rather than taking on new debt.

City National’s Announced Intention to Repay Treasury

On May 4, 2009, City National announced a public offering to sell
approximately 2.7 million shares priced the following day at $39 a
share. According to the press release, City National intended to use
proceeds from the offering toward the redemption of preferred
stock and the repurchase of warrants sold to Treasury as part of
CPP. The offering raised about $100 million. As of the date of this
report, City National has not applied to Treasury to return the
money, and has not publicly announced a timetable for the
submission of its application.




City National Corporation Capital Purchase Program Case Study              Page 7
(OIG-09-044)
                                   * * *.*.*

The major contributors to this report were Susan Barron, Audit
Director, and Lisa DeAngelis, Senior Auditor. We appreciate the
courtesies and cooperation provided to our staff. If you wish to
discuss this report, you may contact me at (202) 927-5400.




Marla A. Freedman
Assistant Inspector General for Audit




City National Corporation Capital Purchase Program Case Study   Page 8
(OIG-09-044)
Appendix 1
Objective, Scope, and Methodology




The purpose of our work was to (1) provide a case study of the
approval process used by Treasury for allowing City National’s
participation in CPP and (2) determine the controls in place to
ensure the approval of this financial institution was consistent with
TARP objectives.

To meet our objectives, we

•   reviewed the Emergency Economic Stabilization Act (EESA), and
    amendments to EESA by the American Recovery and
    Reinvestment Act of 2009, and applicable guidance on CPP;
•   documented the process for reviewing and approving
    applications requesting CPP funding;
•   discussed with Office of Comptroller of the Currency (OCC) and
    CPP officials the methodology for review, recommendation, and
    approval of City National to receive CPP funding;
•   reviewed the application, case file decision memorandum, and
    correspondence relating to the review and approval of City
    National;
•   reviewed a sample of other case files for comparison and
    analysis of the City National case decision;
•   reviewed public financial and performance reports filed by City
    National and other financial institutions, and public releases by
    City National.

We performed our work from December 2008 to June 2009.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




City National Corporation Capital Purchase Program Case Study   Page 9
(OIG-09-044)
                       Appendix 2
                       Program Requirements




                       Section 101 of the Emergency Economic Stabilization Act (EESA)
                       authorized the Secretary of the Treasury to establish the Troubled
                       Asset Relief Program (TARP) to purchase, and to make and fund
                       commitments to purchase troubled assets from any financial
                       institution, on such terms and conditions as are determined by the
                       Secretary, and in accordance with EESA and the policies and
                       procedures developed and published by the Secretary. Using this
                       authority, on October 14, 2008, Treasury announced a voluntary
                       Capital Purchase Program (CPP) under which Treasury could
                       purchase senior preferred shares, on standardized terms, of
                       financial institutions. The application deadline for publicly-held
                       institutions was November 14, 2008, the deadline for applications
                       from eligible privately-held financial institutions was December 8,
                       2008, the deadline for S-corporations was February 13, 2009, and
                       the deadline for small institutions with assets less than $500
                       million is November 21, 2009. 6 The deadline for mutual holding
                       companies was May 7, 2009; for mutual banks, the deadline was
                       May 14, 2009.

                       For publicly-held institutions, such as City National, the minimum
                       amount of senior preferred stock available for purchase from a
                       participating institution was 1 percent of its risk-weighted assets.7
                       The maximum amount was the lesser of $25 billion or 3 percent of
                       risk-weighted assets. The senior preferred shares pay to the federal
                       government a cumulative dividend rate of 5 percent per annum for
                       the first 5 years and reset to a rate of 9 percent per annum after
                       year 5.

                       The financial institution must meet certain criteria to qualify for
                       participation in CPP. These criteria include meeting certain
                       regulatory ratio requirements and obtaining a recommendation from
                       the institution’s regulatory agency. Upon review of the application
                       by Treasury, each institution is assigned to one of the following
                       categories:




6
 Small institutions may apply for CPP assistance up to 5 percent of their risk-weighted assets.
7
 Risk-weighted assets are rated by risk to establish the minimum amount of capital that is required
within institutions. Institutions whose portfolios hold more risk require more capital.

                       City National Corporation Capital Purchase Program Case Study             Page 10
                       (OIG-09-044)
                       Appendix 2
                       Program Requirements




                       Category 1—Presumptive approval

                       For presumptive approval, an institution must meet one of the
                       following criteria:

                       •   Have a composite CAMELS 8 rating of 1
                       •   Have a composite CAMELS rating of 2 for the most recent
                           examination which is no more than 6 months old
                       •   Have a composite CAMELS rating of 2 or 3 for the most recent
                           examination which is more than 6 months old and have
                           acceptable performance ratings as follows: Classified
                           Assets/Net Tier 1 Capital plus Allowance for Loan and Lease
                           Losses (ALLL) 9 ratio less than 100 percent; Non-Performing
                           Loans plus Other Real Estate Owned/Net Tier 1 Capital plus
                           ALLL ratio less than 40 percent; Construction Development
                           Loans/Total Risk-Based Capital 10 ratio less 300 percent; and a
                           Community Reinvestment Act (CRA) 11 rating of at least
                           satisfactory.



8
  CAMELS refers to the Uniform Financial Institutions Rating System (UFIRS) adopted by the Federal
Financial Institutions Examination Council in November 1979. UFIRS takes into consideration certain
financial, managerial, and compliance factors that are common to all institutions. Under UFIRS, each
financial institution is assigned, by a regulator, a composite CAMELS rating based on an evaluation and
rating of six essential components of an institution's financial condition and operations. These
component factors address the adequacy of capital, the quality of assets, the capability of
management, the quality and level of earnings, the adequacy of liquidity, and the sensitivity to market
risk. Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest performance, inadequate risk
management practices and, therefore, the highest degree of supervisory concern.
9
  ALLL is an estimate of uncollectible amounts that is used to reduce the book value of a bank’s loan
and lease portfolio to the amount that is expected to be collected.
10
   Total Risk-Based Capital represents the amount of capital based on an assessment of credit risks that
a company should hold to protect it against adverse developments. The formula is Total Capital (Tier 1
and Tier 2 capital)/Risk-Adjusted Assets. For an institution to be deemed well-capitalized under the
provisions of Prompt Corrective Action (12 CFR 6.4), its total risk-based capital ratio must be 10
percent or greater.
11
   CRA is a law designed to encourage commercial banks and savings associations to meet the needs of
borrowers in all segments of their communities, including low- and moderate-income neighborhoods. It
requires regulated financial institutions to meet the credit needs of the local communities in which they
are chartered, consistent with safe and sound operation. Accordingly, regulators, among other things,
periodically examine financial institutions under their supervision for CRA compliance and consider this
information when approving applications for new bank branches or for mergers and acquisitions.


                       City National Corporation Capital Purchase Program Case Study              Page 11
                       (OIG-09-044)
Appendix 2
Program Requirements




Category 2—Presumptive CPP Council review

An institution’s application for participation must be forwarded to
the CPP Council for further review if the institution meets the
following criteria:

•   Has a composite CAMELS rating of 2 for the most recent
    examination which is more than 6 months old and has overall
    unacceptable performance ratios, as described above
•   Has a composite CAMELS rating of 3 and has overall
    unacceptable performance ratios, as described above

The CPP Council consists of representatives from the four primary
federal banking agencies (Office of the Comptroller of the Currency
(OCC), Office of Thrift Supervision, Federal Deposit Insurance
Corporation, and Board of Governors of the Federal Reserve
System), with Treasury officials as observers.

Category 3—Presumptive denial

An institution is presumptively denied if it received a composite
CAMELS rating of 4 or 5 for the most recent examination.

Review and Approval for CPP Participation

At the time that City National Corporation was being considered for
participation in CPP, interested financial institutions were required
to submit their application requesting CPP funding to their federal




City National Corporation Capital Purchase Program Case Study   Page 12
(OIG-09-044)
                       Appendix 2
                       Program Requirements




                       banking agency. 12 The agency, in this case OCC, analyzed the
                       application using standard review procedures and made
                       recommendations to Treasury’s Office of Financial Stability (OFS)
                       as to whether the request should be approved. If the agency
                       recommends the institution for receipt of funds, it would forward
                       the application and recommendation to OFS . If the agency were to
                       determine that the institution is not eligible for CPP funding, it
                       would suggest that the institution withdraw its application. If an
                       institution is a category 2 or 3 and the agency wants to
                       recommend approval or is unclear whether an institution should be
                       approved, the agency would forward the application and standard
                       forms to the CPP Council 13 for further review. For Category 2
                       institutions, the CPP Council evaluates the viability of institutions
                       applying for CPP funding. After the CPP Council reviews an
                       application for CPP participation, it forwards its recommendation
                       with a supporting decision memorandum and forms to OFS.

                       Upon receipt of a recommendation and supporting documentation
                       from the federal banking agency or CPP Council, OFS reviews the
                       documents for completeness and forwards them to the Chief
                       Investment Officer and Chief Compliance Officer for Treasury’s
                       OFS. All applications are forwarded for review by Treasury’s TARP
                       Investment Committee for preliminary approval and allocation.

                       The TARP Investment Committee serves as an advisory body to
                       the Assistant Secretary for Financial Stability. Investment
                       Committee recommendations are by majority vote. Committee
                       membership consists of the Assistant Secretary for Financial
                       Stability; Assistant Secretary for Financial Institutions, Assistant
                       Secretary for Financial Markets, Assistant Secretary for Economic
                       Policy, and Chief Investment Officer for OFS, or their designees.


12
   The Federal Reserve Board is the primary regulator for City National Corporation, the holding company
for City National Bank. City National Bank’s primary regulator is OCC. The application for participation in
CPP was forwarded to OCC for review because the majority of the holding company’s assets are held
by City National Bank.
13
   The CPP Council serves as an advisory body to Treasury to ensure that the guidelines governing
acceptance of institutions into CPP are applied effectively and consistently. Specifically, the CPP
Council provides recommendations to Treasury on institutions whose condition or supervisory records
pose exceptions or unique issues with respect to the participation guidelines set forth by Treasury and
regulatory agencies. To help ensure objectivity, the CPP Council consists of one representative from
each of the primary federal banking agencies.

                       City National Corporation Capital Purchase Program Case Study               Page 13
                       (OIG-09-044)
                      Appendix 2
                      Program Requirements




                      The TARP Investment Committee assesses the overall strength and
                      viability of institutions without considering potential funds received
                      under CPP. The committee gives considerable weight to the federal
                      banking agency and CPP Council recommendations as set forth in
                      the case memoranda. In addition, the following factors are
                      considered: (1) the existence of a bona fide merger agreement
                      involving the financial institution, (2) a confirmed equity investment
                      in the institution, and (3) whether the institution has been
                      particularly adversely affected by write-downs of preferred stock in
                      a government-sponsored enterprise (e.g., Fannie Mae, Freddie
                      Mac). An applicant qualifying as a Category 2 or 3 institution will
                      still be considered for participation in CPP if they are affected by
                      any, or all, of these factors. If the committee decides to
                      recommend preliminary approval for an institution to receive CPP
                      funding, the OFS staff communicates Treasury’s preliminary
                      decision to the applicant and the regulatory agency. Investment
                      Committee recommendations are recorded in meeting minutes and
                      are also filed by CPP staff.

                      Final acceptance occurs when the institution submits the required
                      documentation to Treasury, the applicable transaction closes, and
                      the Assistant Secretary for Financial Stability signs the documents.
                      In a December 2008 interview, a TARP official told us that no
                      procedures were in place to determine the order in which
                      institutions receive CPP funding. In practice, the order has been
                      determined by when an institution provides all its required
                      documentation after its application has been preliminarily approved.
                      If the financial institution receives final approval, OFS coordinates
                      with its custodian, the Bank of New York Mellon, to disburse funds
                      and receive securities. In addition, the Bank of New York Mellon
                      serves as the collection agents for dividend payments. 14

                      The steps for processing and acceptance of applications under CPP
                      are depicted in Figure 1 on the following page.




14
  On October 14, 2008, Treasury announced the selection of Bank of New York Mellon as its custodian
for TARP as authorized by EESA. The bank is to provide the accounting of records, hold all cash and
assets, provide pricing and asset valuation services, and assist with other related services.

                      City National Corporation Capital Purchase Program Case Study         Page 14
                      (OIG-09-044)
                                 Appendix 2
                                 Program Requirements




Figure1:CPP Process


   Financial Institution                                                                            TARP Investment Committee reviews 
   completes application to                                                                         application, requests more 
   participate in CPP and                                                                           information, as necessary, and, if 
   submits it to their                                                                              okay, approves transaction. The 
   regulatory agency for                                                                            application is forwarded to Bank of 
   review.                                                                                          New York Mellon. 

                                        Category 1 
                                         

                                                                Category 2 
    Regulatory agency reviews                                                 CPP Council reviews 
    institution’s application,                                                application, requests 
    assigns a category of 1, 2, or               Category                     more information, as 
    3, and forwards to                           1, 2, or 3?                  necessary, then 
    appropriate officials for                                                 forwards to TARP 
    further review based on                                                   Investment Committee          The approval of the Assistant 
    category.                                                                 for further review, if        Secretary for Financial Stability 
                                      Category 3                              okay.                         completes the transaction; 
                                                                                                            Treasury works with its legal 
                                                                                                            agents and custodian bank, Bank 
                                          Regulatory agency requires                                        of New York Mellon, to settle the 
                                          more information, as                                              CPP transaction. 
                                          necessary, then either 
                                          recommends withdrawal of 
                                          the application or forwards 
                                          to CPP Council further 
                                          review. 




Note: We reviewed the CPP application procedures very early in the development of the policies and
procedures for the CPP. Subsequent to the completion of our fieldwork more procedures have been
added to enhance the process. One of those procedures is a CPP staff review of applications before
presentation to the TARP Investment Committee. This step is not shown in the Figure above as it was
not in place during our fieldwork.




                                 City National Corporation Capital Purchase Program Case Study                                       Page 15
                                 (OIG-09-044)
Appendix 3
Management Response




City National Corporation Capital Purchase Program Case Study   Page 16
(OIG-09-044)
Appendix 4
Report Distribution




Department of the Treasury

    Deputy Secretary
    Assistant Secretary for Financial Stability
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control
    Special Inspector General for the Troubled Asset Relief Program

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




City National Corporation Capital Purchase Program Case Study   Page 17
(OIG-09-044)
